                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS
                                                                                  ,,/              ,


                                                  CLOSEOUT MEMORANDUM

 Case Number: A07040022                                                                                    Page 1 of 1


                  We investigated an allegation that a PI 1 acting through his small business (Company 1i had
         represented methodology contained in trade secret documents ofa large corporation (Company 2)3 as
         its own intellectual work product in order to receive numerous SBIR and other federal awards4 as
         well as numerous patents. We obtained a copy ofthe allegedly intercepted documents and were able
         to obtain verification from Company 2 that the documents belong to Company 2. Company 2 also
         -verified that the documents contain methodology that was controlled through its proprietary
         information tracking system and there were no recorded instances in which the documents left the
         custody of Company 2. We also obtained information that suggested a colleagueS of the PI
         intercepted the documents at a research conference in the 1990s when a Company 2 employee
         unknowingly dropped the documents.

                 Given the specific facts of this case and the time th~t has elapsed since the alleged events
         involving NSF-funding, we determin~d that any civil or criminal violations are beyond the statute of
         limitations. We also determined that given the length oftimethat had expired since the documents
         were allegedly obtained, further investigation ofthe research misconduct allegations was untenable.

                   Accordingly, this case is closed.




         2



         4Other agencies include but are not limited to: the National Institute of Standards and Technology (NIST) and the
         Office ofNaval Research
         5




NSF OIG Form 2 (11/02)
